WR-B-00-03




              AUDIT
             REPORT


                               OUTSOURCING OPPORTUNITIES
                               AT THE LOS ALAMOS NATIONAL
                                       LABORATORY




                                         JANUARY 2000



  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                                  January 18, 2000


MEMORANDUM FOR THE MANAGER, ALBUQUERQUE OPERATIONS OFFICE

FROM:                   Lawrence R. Ackerly, Regional Manager (Signed)
                        Western Regional Audit Office
                        Office of Inspector General

SUBJECT:                INFORMATION: Audit Report on "Outsourcing Opportunities at the Los Alamos
                        National Laboratory"

BACKGROUND

Since 1994, the Department of Energy (Department) developed an approach that required its management and
operating contractors to identify and evaluate all of their services to determine whether they can be obtained at a
lower cost from an outside entity. The Department also recognized, however, that the unique nature of the work
performed at national laboratories, such as Los Alamos National Laboratory (Los Alamos), would preclude some
services from being performed by an outside entity.

Although Los Alamos has subcontracted its security services and various facility maintenance and support services,
it has traditionally performed all of its routine support services in-house. We initiated the audit to determine if Los
Alamos had identified outsourcing opportunities for its support services.

RESULTS OF AUDIT

The audit found that Los Alamos had not identified all support services with outsourcing potential. Specifically, of
the 184 support services Los Alamos reviewed, it determined that only 4 had outsourcing potential. However, we
concluded that at least 128 of Los Alamos' support services reviewed had outsourcing potential. These services
were not identified because Los Alamos' screening process was flawed. Since this process was the initial step
leading to cost-benefit analyses, Los Alamos did not conduct such analyses on the majority of its support services.
Thus, Los Alamos cannot ensure that about $128 million spent on these services represent the least cost to the
government.

MANAGEMENT REACTION

Management concurred with the finding and recommendations presented in this report.
OUTSOURCING OPPORTUNITIES AT THE LOS ALAMOS
NATIONAL LABORATORY

TABLE OF
CONTENTS



                Overview

                Introduction and Objective.......................................................1


                Conclusions and Observations ..............................................1


                Services With Outsourcing Potential


                Details of Finding.....................................................................2


                Recommendations and Comments.......................................6


                Appendices

                Scope and Methodology.........................................................7

                Related Office of Inspector General Reports........................8
Overview
INTRODUCTION      In 1994, the Department of Energy (Department) developed an approach
AND OBJECTIVE     that required its management and operating contractors to identify and
                  evaluate all of their services to determine whether they could be obtained at a
                  lower cost from an outside entity. The Department also recognized,
                  however, that the unique nature of the work performed at national
                  laboratories, such as Los Alamos National Laboratory (Los Alamos), would
                  preclude some services from outsourcing consideration.

                  Although Los Alamos has subcontracted its security services and various
                  facility maintenance and support services, it has traditionally performed all of
                  its routine support services in-house. The objective of this audit, therefore,
                  was to determine if Los Alamos has identified outsourcing opportunities for
                  its support services.

CONCLUSIONS AND   Los Alamos had not identified all support services with outsourcing potential.
OBSERVATIONS      Of the support services it reviewed, Los Alamos determined that only 4 had
                  a potential for outsourcing. We concluded, however, that a majority of Los
                  Alamos' support services had outsourcing potential and that some routine
                  support services, such as Travel, are being outsourced at other Department
                  locations. These services were not identified because Los Alamos' screening
                  process was flawed. Since this process was the initial step leading to cost-
                  benefit analyses, Los Alamos did not conduct such analyses on the majority
                  of its support services. Thus, it cannot ensure that about $128 million spent
                  on these services represent the least cost to the government.

                  The conclusions in this report parallel those of an ongoing Departmentwide
                  audit on the management and operating contractor make-or-buy program.
                  Both audits indicate a more proactive approach for managing the
                  Department's make-or-buy program is needed. Additionally, there have
                  been other Office of Inspector General reports issued where the make-or-
                  buy program was not properly implemented. These reports are identified in
                  Appendix 2. Management should consider issues discussed in this audit
                  report when preparing its yearend assurance memorandum on internal
                  controls.


                                                             (Signed)
                                                          ______________________
                                                          Office of Inspector General




Page 1                                                   Introduction And Objective/
                                                         Conclusions And Observations
Services With Outsourcing Potential
Support Services   Los Alamos had not identified all support services with outsourcing potential.
With Outsourcing   Los Alamos stated that it screened 190 support services for outsourcing
Potential          potential. However, Los Alamos had outsourced 4 services before the
                   screening process began and discontinued 2 additional support services
                   before the process was completed. Thus, the screening specifically focused
                   on the remaining 184 support services.

                   Of these 184 services, Los Alamos identified only 4 as having outsourcing
                   potential. These services included: Production Control; Environment,
                   Safety, and Health's Computer Programming; Closures; and Duplicating.
                   Los Alamos eliminated one service, Closures, from further consideration
                   because the need for this service was nearing completion and forwarded
                   Duplicating for a cost-benefit analysis. Los Alamos personnel did not offer
                   any explanation for the remaining two services nor was an explanation
                   provided in their Make-or-Buy Plan. At the time of this audit, however, Los
                   Alamos had not performed the cost-benefit analysis on Duplicating and, thus,
                   has not evaluated or outsourced any of these services.

                   To determine if any of the remaining 180 services had outsourcing potential,
                   we analyzed the questionnaires that Los Alamos used in its screening process
                   and interviewed personnel involved with those services that appeared to be
                   essential to Los Alamos. We determined, based on these interviews, that
                   many of these services were not essential to Los Alamos and had the
                   potential to be outsourced. In total, we concluded that 128 services had
                   outsourcing potential but that 52 did not. Further, we determined that many
                   of the 128 services were routine; that is, they included: Travel, Secretarial
                   Services, Records Management, Training, Document Scanning, and Printing.
                   During our analysis, we noted that one of these services, Travel, had been
                   outsourced at Lawrence Livermore National Laboratory and Sandia
                   National Laboratories. In fact, the Department contracts out its travel
                   functions at various locations.

Program Guidance   In addition to services being outsourced at other Department locations, Los
                   Alamos personnel stated that a number of the 128 services could be
                   performed by outside entities. Laboratory personnel, for example, pointed
                   out that Air Quality/Air Emissions Permitting, an engineering and
                   environmental service, can be performed by an outside entity. They also
                   noted services, such as: Operational Safety; Compensation and Award Plan
                   Design and Analysis; Environmental Impact Statements;




Page 2                                                                   Details Of Finding
                     and Training Program Design, Analysis, and Evaluation can be done by
                     outside entities. Since Los Alamos' screening process had not identified
                     these services as having outsourcing potential, it continues to perform all 128
                     in-house.

Requirements To      The importance of and requirements for outsourcing are discussed in two
Assess Outsourcing   key Department documents. The 1994 report, Making Contracting Work
Opportunities        Better and Cost Less, concluded that significant savings could accrue to the
                     government if functions not essential to the Department's core mission were
                     performed by outside contractors. The importance of outsourcing was also
                     discussed in the Department's 1997 report, Harnessing the Market: The
                     Opportunities and Challenges of Privatization. This report emphasized
                     that outsourcing decisions begin with a screening process that identifies
                     services having outsourcing potential. The report also points out that once
                     these services are identified, a cost-benefit analysis must be conducted to
                     determine whether outsourcing will result in obtaining services at a lower
                     cost.

                     The requirement for Los Alamos to assess outsourcing opportunities was
                     incorporated into the contract as Clause 6.18, Make-or-Buy Plan. The
                     clause specifically required Los Alamos to develop and implement a Make-
                     or-Buy Plan that established a preference for providing supplies and services
                     on a least-cost basis. In May 1996, Los Alamos began developing its
                     "Master Make-or-Buy Plan" which was completed on March 30, 1998, and
                     approved by the Department on April 3, 1998. The approved Plan
                     described Los Alamos' approach for identifying and assessing outsourcing
                     opportunities for all support services whose costs equaled or exceeded
                     $1million a year and specified that routine services will be obtained from the
                     source that offered the best value/least overall cost.

                     Part of the decision to outsource would be based on analysis that included a
                     screening process to identify services that had outsourcing potential.
                     Because of the nature of Los Alamos' work, however, the Plan established
                     limitations, such as national security considerations or critical business
                     operations, that would preclude some services from being outsourced. The
                     Plan defined critical business operations, in part, as those that comprised
                     various non-scientific, non-programmatic policy setting functions and
                     specified that such functions cannot be outsourced.




Page 3                                                                       Details Of Finding
                    Further, the Plan stated that other selected functions may also be retained in-
                    house at the operational level.

                    Once the screening process identified services with outsourcing potential,
                    Los Alamos was required to conduct a cost-benefit analysis to determine if
                    outsourcing would result in the best-value/least cost. Thus, the screening
                    process represented a crucial first step towards performing cost-benefit
                    analyses and obtaining services at the least cost to the government.

Identification Of   There were two major reasons for Los Alamos not identifying all services
Services With       with outsourcing potential in its Make-or-Buy Plan. Los Alamos' screening
Outsourcing         process was flawed, and it was leveraging its subcontractors' outsourcing to
Potential           fulfill its own outsourcing requirement.

                                                  Screening Process

                    Los Alamos did not identify all services with outsourcing potential because its
                    screening process was flawed. This process identified outsourcing potential
                    by using numerical ratings to score a service. Once the scores were
                    obtained, Los Alamos designated logical breakpoints. However, the logical
                    breakpoints were subjectively determined and appeared to be inconsistently
                    applied. Los Alamos' own Plan indicated that the process may have had
                    problems. For example, certain routine services, such as: Travel, Wellness
                    Center, Business Computing, Document Scanning, and Facilities Engineering
                    were expected to be identified as having outsourcing potential but were not.

                    The Plan provided several reasons for their absence. In some cases, for
                    example, the service was a close competitor, that is, its score fell "just below
                    the logical break point" and "would have been included had the screening
                    process gone one level deeper." We asked Los Alamos personnel to
                    identify the breakpoint; however, they were not able to identify a specific
                    breakpoint. In most cases, however, the Plan noted that the service was
                    omitted because there was a "lack of regional economic development
                    potential" and the service would be "a poor investment in resources for
                    further pursuit." While Los Alamos recognized that a different breakpoint
                    would have produced the anticipated results, it did not change its numerical
                    process. Further, the explanation did not provide any support for the lack of
                    regional development or give a rationale for concluding why a service
                    represented a poor investment pursuit.




Page 4                                                                      Details Of Finding
                    In addition, the use of the scores to identify outsourcing potential was
                    inconsistent. For example, Production Control was identified as a service
                    with outsourcing potential while Fleet Management Oversight, which had a
                    similar score, was not recommended as an outsourcing candidate. Another
                    example was Duplicating which was identified as having outsourcing
                    potential; however, Desktop Support had a similar score but was not
                    identified as having outsourcing potential.

                    During one point in the screening process, Los Alamos' Environment, Safety,
                    and Health Division refined its identification of outsourcing candidates. In a
                    memorandum dated June 2, 1997, the division director identified five
                    services: Wellness Center; Toxicology and Information Services; Computer
                    Programming (Industrial Hygiene); Environment, Safety, and Health Manual
                    and Documents Development; and Computer and Information Systems for
                    Radiation Programs that were the "best candidates for the potential buy
                    category." However, none of the five candidates were identified in the Plan
                    as outsourcing candidates.

                    Even though Los Alamos' Plan identified only 4 out of 184 services as having
                    outsourcing potential, Los Alamos Area Office (LAAO) personnel approved
                    the Plan as fulfilling the contract requirement. LAAO explained its
                    acceptance by stating that it approved the process used by Los Alamos; not
                    necessarily the contents of the plan.

                                           Outsourcing By Subcontractors

                    Los Alamos believed it was fulfilling its outsourcing requirements in the Plan
                    through one of its major subcontractors. The subcontract required the
                    contractor to outsource $10 million of work in the first year and
                    $10 million of additional work over the next 4 years. However, we
                    disagreed that subcontractor outsourcing fulfilled Los Alamos' requirement.
                    Further, personnel from the Office of Privatization and Contract Reform
                    agreed with our conclusion. In fact, they pointed out that they have been
                    aware of Los Alamos' reluctance to consider outsourcing for some time and
                    have stated their intention to focus on Los Alamos as soon as time and
                    resources are available.

Services At Least   As a result of not identifying all services with outsourcing potential,
Cost To The         Los Alamos did not have to do a cost-benefit analysis on the majority of its
Government          support services. Therefore, it cannot ensure that approximately $128
                    million spent on the services reviewed in this report represent the least cost


Page 5                                                                      Details Of Finding
                  to the government. Further, Los Alamos’ outsourcing objectives--to
                  maximize productivity, maximize job opportunities, and maximize regional
                  economic development opportunities--may not be met.

RECOMMENDATIONS   We recommended that the Manager, Albuquerque Operations Office direct
                  Los Alamos to:

                  1. revise the screening process to objectively identify all support services
                     having outsourcing potential;

                  2. conduct a cost-benefit analysis on outsourcing candidates to determine
                     the most economical method for obtaining the services;

                  3. take appropriate action based on the analyses to obtain the services at
                     the least cost to the government; and,

                  4. periodically review new or retained services to determine if they have
                     outsourcing potential.

MANAGEMENT        Management concurred with the finding and recommendations presented in
REACTION          the report. They discussed Make-or-Buy Plan implementation and
                  administration deficiencies with Los Alamos representatives. According to
                  management, Los Alamos recognized the necessity to update their Make-or-
                  Buy Plan and correct any deficiencies in identifying potential candidates for
                  outsourcing. Management provided assurance that the report's
                  recommendations will be addressed in the updated plan.

 AUDITOR          Management's comments are responsive to the recommendations.
 COMMENTS




Page 6                                             Recommendations And Comments
Appendix 1
SCOPE         The audit was performed at Los Alamos and at Headquarters from
              April 7, 1999 through December 20, 1999. We examined the Master
              Make-or-Buy Plan prepared by Los Alamos and dated March 30, 1998, as
              well as supporting documentation. We did not, however, review the
              addendum containing the environmental restoration and waste management
              activities.

METHODOLOGY   To accomplish the audit objective, we reviewed the screening process
              identified in Los Alamos' Make-or-Buy Plan. The review focused on
              whether Los Alamos' process identified all routine support services with
              outsourcing potential. In addition, we interviewed Headquarters and Los
              Alamos personnel and reviewed the Department's reports: Making
              Contracting Work Better and Cost Less and Harnessing the Market: The
              Opportunities and Challenges of Privatization.

              The audit was conducted in accordance with generally accepted government
              auditing standards for performance audits, which included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. There were no performance measures established
              for the identification of outsourcing opportunities. Because the review was
              limited, it would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. Since computerized data was
              not primarily used for support of the finding, we did not fully validate the
              reliability of it.

              An exit conference was waived by the Albuquerque Operations Office on
              December 20, 1999.




Page 7                                                         Scope And Methodology
Appendix 2

                    RELATED OFFICE OF INSPECTOR GENERAL REPORTS

•   Audit of the Radioactive Liquid Waste Treatment Facility Operations at the Los Alamos National
    Laboratory, WR-B-98-01, November 1997

    Los Alamos' treatment costs were significantly higher when compared to similar costs incurred
    by the private sector because Los Alamos did not perform a complete analysis of privatization
    or prepare a Make-or-Buy plan for its treatment operations.

•   Audit of Effectiveness and Efficiency of the Rocky Flats Analytical Services Program, CR-B-95-01,
    November 1994

    The management and operating contractor at Rocky Flats did not evaluate alternatives to
    contractor-provided analytical services. Instead, the contractor used in-house laboratories
    to provide analytical services when less expensive and more efficient services were available
    from subcontract laboratories.




Page 8                                                   Related Office Of Inspector General Reports
                                                                             Report No. WR-B-00-03


                                CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore, ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                Office of Inspector General (IG-1)
                U.S. Department of Energy
                Washington, D.C. 20585
                ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
  The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the following
                                                      address:


                     U.S. Department of Energy Office of Inspector General Home Page
                                          http://www.ig.doe.gov


        Your comments would be appreciated and can be provided on the Customer Response Form
                                       attached to the report.
